Washington, D.C. 20530

April 6, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: William J. Miller v. United States of America,
S.Ct. No. 20-1202
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on February 25, 2021.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on April 14, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1202
MILLER, WILLIAM J.
USA

AMIR H. ALI
RODERICK & SOLANGE MACARTHUR
501 H ST., NE
SUITE 275
WASHINGTON, DC 20002
202-869-3434
AMIR.ALI@MACARTHURJUSTICE.ORG
CAROLINE C. CEASE
JENNER & BLOCK LLP
1099 NEW YORK AVENUE, NW
SUITE 900
WASHINGTON, DC 20001-4412
202-639-6056
CCEASE@JENNER.COM
ERIC G. ECKES
PINALES STACHLER YOUNG & BURRELL
455 DELTA AVE.
STE. 105
CINCINNATI,, OH 45226
MAHESHA P. SUBBARAMAN
SUBBARAMAN PLLC
222 S. STREET
SUITE 1600
MINNEAPOLIS, MN 55402
612-315-9210
MPS@SUBBLAW.COM

